CERTIFICATION OF SERVICE
The undersigned does hereby certify that a copy of the foregoing Application have
been sent via First-Class Mail, postage prepaid and email on this 13th day of
November 2019 to defendants' attorney noted with the following contact
information. Additionally, Petitioner certifies copy of same Application has been
emailed electronically to third parties listed below, identified as Interested Parties.
Defendants'/Respondents' Attorney
Harris, Karstaedt, Jamison & Powers, P.C.
Susan Stamm, Attorney
Lorie Gettman, Legal Assistant
Melody Lowman, Legal Assistant
Phone: 720-875-9140
Fax: 720-875-9141
10333 E. Dry Creek Road, Suite 300
Englewood, Colorado 80112

Email
SStamm@hkjp.com
lgettman@hkjp. com
mlowman@hkjp.com

Interested Parties

Email

MILER MENDELSON, P.C.
CEB (SHL), Third Party
Jennifer S. Harpole, Attorney
1900 Sixteenth Street, Suite 800
Denver, CO 80202

jharpole@littler.com

Forensic Pursuit
Chief Executive Officer
Mr. Robert Kelso
2000 Arapahoe Street, Suite 1
Denver, CO 80205

robert.kelso@forensicpursuit.com

Dated November 13, 2019

Page 4 of 4

Alireza Vazirabadi, Petitioner, pro se
avazirabadi@yahoo.com
843 Vaughn Street
Aurora, CO 80011
720-218-4769

